      DEPARTMENT OF HEALTH & HUMAN SERVICES                              Office of Inspector General


                                                                       Washington, D.C. 20201




July 12, 2010

TO:             Marilyn Tavenner
                Acting Administrator and Chief Operating Officer
                Centers for Medicare & Medicaid Services


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        Review of Medicare Contractor Information Security Program Evaluations for
                Fiscal Year 2007 (A-18-07-30291)


The attached final report provides the results of our Medicare contractor information security
program evaluations for fiscal year 2007.

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors, fiscal intermediaries,
and carriers to section 1874A of the Social Security Act (the Act) (42 U.S.C. § 1395kk:-l).
Pursuant to section 1874A of the Act, each Medicare contractor must have its information
security program evaluated annually by an independent entity. Section 1874A of the Act further
requires the Inspector General, Department of Health & Human Services, to submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-18-07-30291 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




     REVIEW OF MEDICARE
   CONTRACTOR INFORMATION
SECURITY PROGRAM EVALUATIONS
     FOR FISCAL YEAR 2007




                       Daniel R. Levinson
                        Inspector General

                           July 2010
                         A-18-07-30291
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 added
information security requirements for Medicare administrative contractors (MAC), fiscal
intermediaries, and carriers to the Social Security Act (the Act). These contractors process and
pay Medicare fee-for-service claims. Each Medicare contractor must have its information
security program evaluated annually by an independent entity, and these evaluations must
address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). To comply with this provision, the Centers for Medicare &
Medicaid Services (CMS) contracted with PricewaterhouseCoopers (PwC) to evaluate
information security programs at the MACs, fiscal intermediaries, and carriers using a set of
agreed-upon procedures.

The Act also requires evaluations of the information security controls for a subset of systems but
does not specify the criteria for these evaluations. To satisfy this requirement, CMS developed
an information security assessment methodology to test segments of the claims processing
systems at Medicare data centers, which operate the computer systems that process and pay
Medicare fee-for-service claims. CMS contracted with JANUS Associates, Inc. (JANUS), to
perform technical assessments at Medicare data centers using the assessment methodology.

The Inspector General, Department of Health & Human Services, must submit to Congress
annual reports on the results of these evaluations, to include assessments of their scope and
sufficiency. This report fulfills that responsibility for fiscal year (FY) 2007.

OBJECTIVES

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

SUMMARY OF RESULTS

PwC’s reviews of the contractor information security program evaluations were adequate in
scope and sufficiency. We could not determine the extent and sufficiency of the JANUS work
for the data center technical assessments because of several issues with its working papers. PwC
reported a total of 112 gaps at 31 Medicare contractors. JANUS reported a total of 199 gaps at
13 data centers.

Assessment of Scope and Sufficiency

PwC’s reviews of the contractor information security program evaluations adequately
encompassed in scope and sufficiency the eight FISMA requirements referenced in the Act.




                                                 i
We could not determine the extent and sufficiency of the JANUS work for the data center
technical assessments because of several issues with its working papers, such as insufficient
evidence that all of the testing procedures had been performed, illegible handwriting and the lack
of cross-references, and incomplete or undocumented elements. For two data centers, JANUS
either omitted gaps identified during testing in the data centers’ reports or inaccurately reported
the systems affected by gaps identified.

Results of Evaluations and Assessments

The results of the contractor information security program evaluations and data center technical
assessments are presented in terms of gaps, which are defined as the differences between FISMA
or CMS core security requirements and the contractors’ implementation of those requirements.

Results of Contractor Information Security Program Evaluations

In the 31 PwC evaluation reports for FY 2007, which covered all MACs, fiscal intermediaries,
and carriers, PwC identified a total of 112 gaps. The number of gaps per contractor ranged from
0 to 21 and averaged 4. The most gaps occurred in the following FISMA control areas: testing
of information security controls (39 gaps at 19 contractors), security program and system
security plans (21 gaps at 17 contractors), policies and procedures to reduce risk (19 gaps at 15
contractors), and security awareness training (17 gaps at 10 contractors).

The number of gaps reported in the PwC FY 2007 evaluation reports only increased by two when
compared to the results for FY 2006, while the number of contractors with no gaps decreased
significantly by over 80 percent.

Results of Data Center Technical Assessments

The 13 Medicare data center technical assessment reports prepared by JANUS identified a total
of 199 gaps. The number of gaps reported per data center ranged from 6 to 35 and averaged 15.
Most of the security gaps occurred in the following security control categories: access control
(111 gaps at 13 data centers), configuration management (54 gaps at 11 data centers),
identification and authentication (15 gaps at 7 data centers), and physical and environmental
protection (7 gaps at 5 data centers).

The total number of gaps identified in FY 2007 (199) was 84 gaps more than the number
identified in FY 2006 (115). We noted decreases in two assessment categories ((1) certification,
accreditation, and security assessments and (2) maintenance) that were tested by JANUS at all
operational data centers in FY 2006 and FY 2007. However, we did not perform a detailed
comparison of the number of gaps identified within other security control categories tested for
the 2 FYs because these categories were not tested by JANUS at all operational data centers in
FY 2006.

Of the 199 gaps JANUS identified at the 13 data centers, 73 gaps were resolved and closed
during or after JANUS’s onsite visits to the data centers. Hence, there were a total of 126 open
gaps at data centers requiring corrective action in FY 2007.

                                                ii
RECOMMENDATIONS

We recommend that CMS:

   •   review all contractor documentation related to future data center technical assessments
       and ensure that the work performed complies with CMS contractual requirements—at a
       minimum, this should include a review of test plans to ensure that the contractor has
       completed all required testing procedures and a review of contractor working papers to
       verify that reported gaps have been adequately supported, identified, and included in the
       technical assessment reports—and

   •   test security control areas in which a considerable number of gaps have consistently been
       identified in the past 2 FYs (i.e., access control, configuration management, identification
       and authentication) at all CMS Medicare data centers every year.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. CMS also
stated that it has taken the appropriate actions to address the identified issues. We have included
CMS’s comments in their entirety in Appendix G.




                                                iii
                                                  TABLE OF CONTENTS


                                                                                                                             Page

INTRODUCTION............................................................................................................. 1

          BACKGROUND .....................................................................................................1
              The Medicare Program ................................................................................. 1
              Medicare Prescription Drug, Improvement, and
              Modernization Act of 2003 ........................................................................... 1
              Centers for Medicare & Medicaid Services Evaluation Process
              for Fiscal Year 2007...................................................................................... 2

          OBJECTIVES, SCOPE, AND METHODOLOGY .................................................3
              Objectives ..................................................................................................... 3
              Scope ............................................................................................................. 3
              Methodology ................................................................................................. 3

RESULTS OF REVIEW .................................................................................................. 4

          ASSESSMENT OF SCOPE AND SUFFICIENCY ................................................4

          RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY
          PROGRAM EVALUATIONS.................................................................................5
              Testing of Information Security Controls ..................................................... 6
              Security Programs and System Security Plans ............................................. 7
              Policies and Procedures To Reduce Risk...................................................... 8
              Security Awareness Training ........................................................................ 8

          RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS .........................9
              Access Control ............................................................................................ 12
              Configuration Management ........................................................................ 13
              Identification and Authentication ................................................................13
              Physical and Environmental Protection ...................................................... 13

          CONCLUSION ......................................................................................................13

          RECOMMENDATIONS .......................................................................................14

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ..........14

APPENDIXES

        A – ASSESSMENT OF SCOPE AND SUFFICIENCY FOR THE JANUS DATA
           CENTER ASSESSMENTS



                                                                     iv
B – LIST OF GAPS BY FEDERAL INFORMATION SECURITY MANAGEMENT
   ACT OF 2002 CONTROL AREA AND MEDICARE CONTRACTOR

C – PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

D – MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS BY FEDERAL
   INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREA

E – RESULTS OF MEDICARE CONTRACTOR EVALUATIONS FOR FEDERAL
    INFORMATION SECURITY MANAGEMENT ACT OF 2002 CONTROL AREAS
    WITH THE GREATEST NUMBER OF GAPS

F – LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
    TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER

G – CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                             v
                                             INTRODUCTION

BACKGROUND

The Medicare Program

The Centers for Medicare & Medicaid Services (CMS) administers the Medicare program.
Medicare is a health insurance program for people age 65 or older, people under age 65 with
certain disabilities, and people of all ages with end-stage renal disease. In fiscal year (FY) 2007,
Medicare paid more than $367 billion on behalf of over 44 million program beneficiaries. CMS
contracts with Medicare Administrative Contractors (MAC), fiscal intermediaries, and carriers to
administer Medicare benefits paid on a fee-for-service basis. Many MACs, fiscal intermediaries,
and carriers operate in-house data centers to process and pay Medicare claims, while others
subcontract with external data centers for this purpose.

In FY 2007, 26 distinct corporate entities served as fiscal intermediaries, carriers, or both. Four
of these entities also served as Durable Medical Equipment MACs, and one served as a Part A/B
MAC. Nine of the twenty-six entities also operated Medicare data centers, and four external
entities operated the remaining four data centers. Thus, 30 distinct entities processed and paid
Medicare fee-for-service claims.

Medicare Prescription Drug, Improvement, and Modernization Act of 2003

The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) added
information security requirements for MACs, fiscal intermediaries, and carriers to section 1874A
of the Social Security Act (the Act). 1 (See 42 U.S.C. § 1395kk-1.) Pursuant to section
1874A(e)(1) of the Act, each MAC, fiscal intermediary, and carrier must have its information
security program evaluated annually by an independent entity. This section requires that these
evaluations address the eight major requirements enumerated in the Federal Information Security
Management Act of 2002 (FISMA). (See 44 U.S.C. § 3544(b).) These requirements, referred to
as “FISMA control areas” in this report, are:

        1. periodic risk assessments,
        2. policies and procedures to reduce risk,
        3. security program and system security plans,
        4. security awareness training,
        5. testing of information security controls,
        6. remedial actions,
        7. incident response, and
        8. continuity of operations planning.

Section 1874A(e)(2)(A)(ii) of the Act requires that the effectiveness of information security
controls be tested for an appropriate subset of Medicare contractors’ information systems.

1
  The MMA contracting reform provisions added to section 1874A of the Act replace existing fiscal intermediaries
and carriers with MACs, which are to be competitively selected. Until such time as the new MACs are in place, the
requirements of section 1874A apply to fiscal intermediaries and carriers.

                                                        1
However, this section does not specify the criteria for evaluating these security controls. CMS
and its information technology (IT) security assessment provider, JANUS Associates, Inc.
(JANUS), developed an information security assessment methodology to comply with this
provision.

Additionally, section 1874A(e)(2)(C)(ii) of the Act requires the Inspector General of the
Department of Health & Human Services to submit to Congress annual reports on the results of
such evaluations, including assessments of their scope and sufficiency. This report fulfills that
responsibility for FY 2007.

Centers for Medicare & Medicaid Services Evaluation Process for Fiscal Year 2007

CMS developed agreed-upon procedures (AUP) for the program evaluation based on the
requirements of section 1874A(e)(1) of the Act, FISMA, information security policy and
guidance from the Office of Management and Budget and the National Institute of Standards and
Technology (NIST), and the Government Accountability Office’s (GAO) Federal Information
Systems Controls Audit Manual (FISCAM). The independent auditors, PricewaterhouseCoopers
(PwC), under contract with CMS, used the AUPs to evaluate the information security programs
at the 31 MACs, fiscal intermediaries, and carriers. The AUPs are the same as those used in
FY 2006; however, CMS removed three subcategories for the FY 2007 evaluations because they
were related to Medicare claims processing software system maintainers and not Medicare
fee-for-service contractors. PwC performed the evaluations and issued separate reports for the
31 MACs, fiscal intermediaries, and carriers.

To comply with the section 1874A(e)(2)(A)(ii) requirement to test the effectiveness of
information security controls for an appropriate subset of contractors’ information systems, CMS
contracted with JANUS to plan, develop, and implement a comprehensive program to perform
testing of information security controls at 13 Medicare data centers. JANUS performed the
assessments and issued separate reports for each of the 13 Medicare data centers.

Table 1 summarizes the change in the number of Medicare contractors and data centers. In
FY 2006, there were 29 Medicare contractors and 14 Medicare data centers. Changes during
FY 2007 resulted in the testing of 31 Medicare contractors and 13 Medicare data centers.




                                                2
        Table 1: Change in the Number of Medicare Contractors and Data Centers
                                                               Medicare       Medicare
                                                              Contractors Data Centers
Ending Balance, FY 2006                                            29           14
Less: Entities that left the Medicare program during FY 2007        1            2
Add: MACs                                                           3
                              2
Add: Enterprise data centers                                                     1
Beginning Balance, FY 2007                                         31           13

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to (1) assess the scope and sufficiency of Medicare contractor information
security program evaluations and data center technical assessments and (2) report the results of
those evaluations and assessments.

Scope

We evaluated the FY 2007 results of the independent evaluations and technical assessments of
Medicare contractors’ information security programs. Our review did not include an evaluation
of internal controls. We performed our reviews of PwC and JANUS working papers at CMS
headquarters in Baltimore, Maryland, and at Office of Inspector General regional offices.

Methodology

To accomplish our objectives, we performed the following steps:

         •   To assess the scope of the evaluations of contractor information security programs,
             we determined whether the AUPs included the eight FISMA control requirements.

         •   To assess the scope of the data center technical assessments, we reviewed the contract
             and statement of work between CMS and JANUS and verified that JANUS performed
             the work that CMS had specified.

         •   To assess the sufficiency of the evaluations of contractor information security
             programs, we reviewed PwC working papers supporting the evaluation reports to
             determine whether PwC conducted the AUPs listed in the reports. We also
             determined whether PwC conducted the evaluations in accordance with attestation
             engagement standards established by the American Institute of Certified Public
             Accountants and in accordance with Government Auditing Standards. In addition, we
             determined whether the evaluation reports encompassed the eight FISMA control
             areas enumerated in section 1874A(e)(1) of the Act.
2
  As part of CMS’s data center consolidation initiative, enterprise data centers are being used to process Medicare
fee-for-service claims. Eventually all CMS data center operations will transition from legacy data centers to at most
three enterprise data centers.

                                                          3
       •   To assess the sufficiency of the data center technical assessments, we reviewed
           supporting working papers to verify that JANUS completed all test procedures,
           reported all medium- and high-risk gaps, and adequately supported all reported results
           with sufficient and appropriate evidence.

       •   To report on the results of the JANUS evaluations and technical assessments, we
           aggregated the results contained in the individual contractor evaluation reports and
           data center technical assessment reports. For the PwC evaluations, we used the
           number of gaps listed in the individual contractor evaluation reports to aggregate the
           results. In some instances, several gaps were noted under FISMA control
           subcategories. We counted duplicate gaps listed in a FISMA control area only once.
           For the JANUS assessments, we used the business risks listed in the individual
           technical assessment reports to aggregate the results.

We conducted this performance audit in accordance with generally accepted government
auditing standards, except that we did not obtain comments from JANUS or PwC. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives.

                                    RESULTS OF REVIEW

PwC’s reviews of the contractor information security program evaluations were adequate in
scope and sufficiency. We could not determine the extent and sufficiency of the JANUS work
for the data center technical assessments because of several issues with its working papers. PwC
reported a total of 112 gaps at 31 Medicare contractors. JANUS reported a total of 199 gaps at
13 data centers.

ASSESSMENT OF SCOPE AND SUFFICIENCY

PwC’s reviews of the contractor information security program evaluations adequately
encompassed in scope and sufficiency the eight FISMA requirements referenced in section
1874A(e)(1) of the Act.

We could not determine the extent and sufficiency of the JANUS work for the data center
technical assessments because of several issues with its working papers. CMS’s contract with
JANUS provided for the planning, development, and implementation of a comprehensive
program to perform testing of information security controls at Medicare data centers.

The test plan documentation supplied by JANUS for 10 of the 13 data centers (77 percent) did
not contain sufficient evidence that all of the testing procedures had been performed. For the test
plans provided, JANUS did not always indicate whether it actually completed each testing
procedure. Additionally, for 8 of the 13 data centers (62 percent), we were unable to trace all
gaps presented in JANUS’s reports to supporting evidence because of illegible handwriting and
the lack of cross-references in the test scripts. Lastly, for 7 of the 13 data centers (54 percent),


                                                 4
we were not able to determine whether JANUS included all medium- and high-risk gaps in the
respective data center reports because of incomplete or undocumented elements in the JANUS
working papers. For two data centers, JANUS either omitted gaps identified during testing in the
data centers’ reports or inaccurately reported the systems affected by the gaps identified. See
Appendix A for our analysis of the JANUS data center assessments.

RESULTS OF MEDICARE CONTRACTOR INFORMATION SECURITY PROGRAM
EVALUATIONS

We present the results of the Medicare contractor information security program evaluations in
terms of gaps, which are defined as the differences between FISMA or CMS core security
requirements and the contractors’ implementation of those requirements.

As shown in Table 2, the 31 evaluation reports identified a total of 112 gaps. The average
number of gaps per contractor was four. The number of gaps per contractor ranged from 0 to 21
for FY 2007. See Appendix B for a list of gaps per control area by contractor.

                       Table 2: Range of Medicare Contractor Gaps
                                       Number of Contractors With
                        Total                     2–5      6–9    10+
               FY       Gaps     0 Gaps 1 Gap     Gaps    Gaps    Gaps
              2006       110        6     3        12        7     1
              2007       112        1     8        18        1     3

The number of gaps reported in the PwC FY 2007 evaluation reports increased by two when
compared to the results for FY 2006, and the number of contractors with no gaps decreased
significantly by more than 80 percent. See Appendix C for the FYs 2006–2007 percentage
change in gaps per Medicare contractor.

Table 3 summarizes the gaps found in each FISMA control area in FY 2006 and FY 2007. The
three FISMA control areas with an increase in gaps for FY 2007 were: (1) security awareness
training, (2) security program and system security plans, and (3) continuity of operations
planning. (Appendix D summarizes the changes in a graph.)




                                               5
      Table 3: Gaps by Federal Information Security Management Act Control Area
                                                                                 No. of
                                                                               Contractors
                                        Impact Levels   No. of Gaps           With One or
                                          of FISMA       Identified           More Gap(s)
                 FISMA                  Control Area   FY         FY         FY         FY
              Control Area              Subcategories 2006       2007       2006       2007
   Periodic risk assessments            High/Medium     2         1          2          1
   Policies and procedures to reduce
                                        High/Medium       22        19       14          15
   risk
   Security program and system
                                        High/Medium       15        21       13          17
   security plans
   Security awareness training          High/Medium       14        17       10          10
   Testing of information security
                                        High/Medium       44        39       20          19
   controls
   Remedial actions                        Medium          2         0       2           0
   Incident response                        High           3         3       3           3
   Continuity of operations planning        High           8        12       7           4
     Total                                               110       112

The Medicare contractor information security program evaluations assessed several
subcategories within each FISMA control area. The “impact level” shown in Table 3 refers to
the possible level of adverse impact that could result from successful exploitation of gaps in any
of the FISMA controls area subcategories depending on the organization’s mission and criticality
and the sensitivity of the systems and data involved. CMS and independent auditors developed
ratings of high, medium, or low impact for the subcategories of the FISMA control areas. The
actual ratings assigned to the subcategories were all high or medium impact and were PwC’s
assessments. It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not to individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by PwC after taking into
consideration the impact and likelihood of occurrence. However, as stated in NIST Special
Publication (SP) 800-115, Technical Guide to Information Security Testing and Assessment, it is
difficult to identify the risk level of individual vulnerabilities because they rarely exist in
isolation.

The following sections discuss the four FISMA control areas containing the most gaps. See
Appendix E for descriptions of each subcategory tested.

Testing of Information Security Controls

According to NIST SP 800-53, Recommended Security Controls for Federal Information
Systems, the effectiveness of information security policies, procedures, practices, and controls
should be tested and evaluated at least annually (or more often depending on risk). NIST
SP 800-115 notes that security testing allows organizations to measure levels of compliance in
areas such as patch management, password policy, and configuration management. According to

                                                6
GAO’s FISCAM, changes to an application should be tested and approved before being put into
production.

Twelve of the thirty-one Medicare contractors had no identified gaps in the testing of
information security controls, while the remaining 19 had 1 to 5 gaps each. In total, 39 gaps
were identified in this area, with 39 gaps assigned to high-impact subcategories.

Following are examples of these gaps:

   •   There was a lack of evidence to support the rationale, testing, and approval for system
       changes.

   •   An annual evaluation or audit was not performed of platform configuration management
       procedures.

   •   Changes to supplemental claims processing software were not tested and approved before
       the changes were put into production.

Without a comprehensive program for periodically testing and monitoring of information
security controls, management has no assurance that appropriate safeguards are in place to
adequately mitigate identified risks.

Security Programs and System Security Plans

NIST SP 800-100, Information Security Handbook: A Guide for Managers, states that agencies
should ensure their information security policy is sufficiently current to accommodate the
information security environment and the agency mission and operational requirements. Federal
Information Processing Standards (FIPS) 200, Minimum Security Requirements for Federal
Information and Information Systems, and NIST SP 800-53 require organizations to screen
employees before granting access to information and information systems.

NIST SP 800-18, Guide for Developing Security Plans for Federal Information Systems, states
that system security plans should provide an overview of a system’s security requirements and
describe the controls in place or planned for meeting those requirements.

Fourteen of the thirty-one Medicare contractors had no identified gaps in security programs and
system security plans, while the remaining 17 had 1 to 3 gaps each. In total, 21 gaps were
identified in this area. Seven gaps were assigned to high-impact subcategories.

Following are examples of gaps in security programs and system security plans:

   •   The contractor did not review security policies and procedures within the previous
       12 months.

   •   The contractor did not complete background investigations for all selected employees
       before they received system access.

                                                7
   •   The system security plan did not reflect the current conditions of the IT operating
       environment.

If information security program requirements are not implemented and enforced, management
has no assurance that established system security controls will be effective in protecting valuable
assets, such as information, hardware, software, systems, and related technology assets that
support the organization’s critical missions.

Policies and Procedures To Reduce Risk

According to NIST SP 800-30, Risk Management Guide for Information Technology Systems,
risk management is the process of identifying and assessing risk and taking steps to reduce risk
to an acceptable level. NIST SP 800-53 requires organizations to establish mandatory security
configuration settings for IT products, enforce the configuration settings in all components of the
information system, and promptly install newly released security-relevant patches and service
packs.

Sixteen of the thirty-one Medicare contractors had no identified gaps in policies and procedures
to reduce risk, while the remaining 15 had 1 to 3 gaps each. In total, 19 gaps were identified in
this area with 1 gap assigned to a high-impact subcategory. Following are examples of gaps in
policies and procedures to reduce risk:

   •   Router configuration standards did not exist to adequately reduce the risk of unauthorized
       access to sensitive CMS information.

   •   Weaknesses were identified in the configuration standards for firewalls, Windows
       servers, and internal network security controls. The standards were not adequate to
       reduce the risk of unauthorized access to sensitive CMS information.

   •   The contractor did not test security patches before they were installed into the production
       environment.

Ineffective policies and procedures to reduce risk could jeopardize an organization’s ability to
perform its mission, as well as to safeguard its information and IT assets. Without adequate
configuration standards and the latest security patches, systems may be susceptible to
exploitation that could lead to unauthorized disclosure, modification, or nonavailability of data.

Security Awareness Training

The Computer Security Act of 1987 (P.L. No. 100-235) requires periodic training in computer
security awareness and accepted computer practices for all employees who manage, use, or
operate Federal computer systems. Additionally, Federal regulations (5 C.F.R. § 930.301(a))
require that role-specific training be provided based on each user’s security responsibilities.
FIPS 200 and NIST SP 800-53 require organizations to provide security awareness training to all
information system users. Additionally, Federal regulations (5 C.F.R. § 930.301(a)) require
agencies to provide training for employees with significant information security responsibilities,

                                                 8
and the CMS Business Partners Systems Security Manual requires Medicare contractors to
document and monitor information security training activities.

Twenty-one of the thirty-one Medicare contractors had no identified gaps in security awareness
training, while the remaining 10 had 1 to 5 gaps each. In total, 17 gaps were identified in this
area. One gap was assigned to a high-impact subcategory.

Following are examples of security awareness training gaps:

   •   Security training and professional development for employees with significant security
       responsibilities had not been documented or formally monitored.

   •   Employees did not complete security awareness training or receive the rules of behavior.

Employees who are unaware of their security responsibilities or have not received adequate
training may be at increased risk of causing or exacerbating a computer security incident. If
security personnel are not provided specific job-related training, management has no assurance
that these employees can effectively perform their job responsibilities. Inadequately trained
employees could cause the loss, destruction, or misuse of sensitive information and IT assets.

RESULTS OF DATA CENTER TECHNICAL ASSESSMENTS

We present the results of the data center technical assessments in terms of gaps, which are
defined as the differences between FISMA or CMS core security requirements and the
contractors’ implementation of those requirements. As shown in Table 4, the 13 Medicare data
center technical assessment reports identified a total of 199 gaps. The average number of gaps
per data center was 15. The number of gaps per data center ranged from 6 to 35.

                             Table 4: Range of Data Center Gaps
                                   Number of Data Centers With
                     Total            1–5      6–10    11–20   21–30             30-40
            FY       Gaps     0 Gaps Gaps     Gaps     Gaps    Gaps              Gaps
           2006       115        1     6         3       3       1                 0
           2007       199        0     0         3       7       2                 1

For FY 2007, CMS contracted with JANUS to evaluate NIST security controls at the 13 data
centers. Overall, the FY 2007 testing addressed the following 12 NIST security control areas:




                                                9
   •   access control                                    •   contingency planning

   •   configuration management                          •   system and information integrity

   •   identification and authentication                 •   audit and accountability

   •   physical and environmental protection             •   personnel security

   •   maintenance                                       •   system and communications protection

   •   certification, accreditation, and security        •   e-authentication
       assessments

JANUS’s testing of the NIST security control areas included a review of policies and procedures
and a penetration test of mainframe and distributed systems. At the enterprise data center,
JANUS tested 18 NIST security control areas, in addition to a penetration test of mainframe and
distributed systems. The security controls tested were the 12 listed above plus security planning,
risk assessment, incident response, media protection, system and services acquisition, and
awareness and training.

JANUS assigned each of the gaps to one of the 18 security control areas. Like PwC, JANUS
categorized the risks associated with the individual gaps as high, medium, or low based on the
potential impact and likelihood of exploitation. Of the 199 gaps JANUS identified across all 13
data centers, 21 gaps were high risk, 63 gaps were medium risk, and 115 gaps were low risk.
Seventy-three gaps were resolved and closed during or after JANUS’s onsite visits to the data
centers, including 12 high-risk gaps, 26 medium-risk gaps, and 35 low-risk gaps. Hence, there
were a total of 126 open gaps at data centers requiring corrective action in FY 2007.

The total number of gaps identified in FY 2007 (199) was significantly higher than the number
identified in FY 2006 (115), an increase of 84 gaps. We noted decreases in two assessment
categories ((1) certification, accreditation, and security assessments and (2) maintenance) that
were tested by JANUS at all operational data centers in FY 2006 and FY 2007. However, we did
not perform a detailed comparison of the number of gaps identified within other security control
categories tested for the 2 FYs because these categories were not tested by JANUS at all
operational data centers in FY 2006. CMS uses a rotational approach in performing its technical
assessments of data centers, where some security control categories are not tested every year.

Table 5 presents the aggregate results reported for the 13 data centers, including the number of
data centers with high-risk gaps. Appendix F shows the number of reported gaps at each data
center by security control area.




                                                    10
                           Table 5: Data Center Reported Gaps by
           National Institute of Standards and Technology Security Control Area
                                 No. of                No. of
                                  Data    Total No.    High-      No. of    No. of
         Security Control       Centers    of Gaps      Risk     Medium- Low-Risk
              Area              w/ Gaps Identified     Gaps     Risk Gaps    Gaps
      Access control                13        111           16           29         66
      Configuration
                                    11         54            3           27         24
      management
      Identification and
                                    7          15            1            1         13
      authentication
      Physical and
      environmental                 5            7           0            0          7
      protection
      Maintenance                   1            3           0            3          0
      Certification,
      accreditation, and            1            2           0            0          2
      security assessments
      Contingency planning          1            2           0            2          0
      System and information
                                    1            2           0            1          1
      integrity
      Audit and
                                    1            1           1            0          0
      accountability
      Personnel security            1            1           0            0          1
      System and
      communications                1            1           0            0          1
      protection
        Total                                 199           21           63       115

Note: For all 13 data centers reviewed, JANUS reported no gaps in the NIST security control
area of e-authentication. For the enterprise data center reviewed for the first time in 2007,
JANUS reported no gaps in security planning, risk assessment, incident response, media
protection, system and services acquisition, and awareness and training.

Noteworthy from the results in the JANUS reports is that 7 of the 21 high-risk gaps (33 percent)
were identified at 1 of the 13 data centers. In addition, the 35 gaps reported at 1 data center
made up 18 percent of all identified gaps.

Figure 1 uses the data from Table 5 to show the percentages of data centers with gaps (per NIST
security control area) in relation to the number of data centers tested. Gaps were identified at
more than one-third of data centers tested in the following NIST security control areas: access
control, configuration management, identification and authentication, and physical and
environmental protection.

                                               11
            Figure 1: Percentage of Tested Data Centers to Data Centers With Gaps,
                by National Institute of Standards and Technology Control Area




                              l
                             tro




                                                               t
                                                           en
                          on




                                                         em
                      C
                     ss




                                                     ag
                  ce




                                                   an
                Ac




                                                  M
                                              n
     100%

                                          a tio
                                       ur
                                      fig
                                   on

      90%




                                                                                  n
                              C




                                                                                  io
                                                                                at
                                                                             tic
                                                                          en
      80%




                                                                                                     n
                                                                                                   t io
                                                                       th




                                                                                                 ec
                                                                   Au




                                                                                              ot
                                                                   &




                                                                                            Pr
      70%
                                                              n
                                                             tio




                                                                                          l
                                                                                       ta
                                                         ica




                                                                                       en
                                                                                     nm
                                                       if
                                                    nt




      60%
                                                                                   ro
                                                     e
                                                  Id




                                                                                vi
                                                                             En




                                                                                                                                                                                                                  n
                                                                           &




                                                                                                                                                                                                                 tio
      50%
                                                                         l
                                                                     ica




                                                                                                                                                                                                               ec
                                                                   ys




                                                                                                                                                                                                             ot
                                                                                                                               ts




                                                                                                                                                                 y




                                                                                                                                                                                                         Pr
                                                               Ph




                                                                                                                             en




                                                                                                                                                            rit
                                                                                                                                                             g
      40%




                                                                                                                                                                                                      ns
                                                                                                                           m




                                                                                                                                                          te




                                                                                                                                                                                                    io
                                                                                                                        ss




                                                                                                                                                       In




                                                                                                                                                                                                  at
                                                                                                                      se




                                                                                                                                                   n




                                                                                                                                                                                                  ic
                                                                                                                                    ng



                                                                                                                                                  io



                                                                                                                                                                         y
                                                                                                                   As




                                                                                                                                                                                                un
                                                                                                                                                                     ilit
                                                                                                                                               at
                                                                                                                                 ni




                                                                                                                                                                                  ity
      30%




                                                                                                                                                                 b




                                                                                                                                                                                            m
                                                                                                                  y



                                                                                                                               an



                                                                                                                                             m




                                                                                                                                                                               ur
                                                                                                               rit




                                                                                                                                                              ta




                                                                                                                                                                                            m
                                                                                                                                               r
                                                                                                                             Pl



                                                                                                                                            fo




                                                                                                                                                                             ec
                                                                                                             cu




                                                                                                                                                           un




                                                                                                                                                                                         Co
                                                                                                                                         In
                                                                                          ce




                                                                                                                        cy
                                                                                                           Se




                                                                                                                                                                           S
                                                                                                                                                         co




                                                                                                                                                                                                            n
                                                                                                                                                                                                          io
                                                                                       an




                                                                                                                                      &




                                                                                                                                                                                        &
                                                                                                                                                                        el
                                                                                                                         n




                                                                                                                                                      Ac
      20%




                                                                                                                                                                                                        at
                                                                                                          nd



                                                                                                                      ge




                                                                                                                                                                        n
                                                                                                                                    em




                                                                                                                                                                                    em
                                                                                       en




                                                                                                                                                                                                       tic
                                                                                                                                                                     on
                                                                                                                                                   &
                                                                                                    ,a



                                                                                                                  tin
                                                                                     nt




                                                                                                                                  st




                                                                                                                                                                                  st




                                                                                                                                                                                                    en
                                                                                                                                                                 rs
                                                                                                                                                  t
                                                                                                 &A



                                                                                                               on
                                                                                   ai




                                                                                                                                               di
                                                                                                                               Sy




                                                                                                                                                                               Sy
                                                                                                                                                            Pe




                                                                                                                                                                                                 th
                                                                                                                                            Au
                                                                                 M




                                                                                                               C
                                                                                               C




                                                                                                                                                                                                Au
      10%




                                                                                                                                                                                            E-
      0%




The following sections discuss the four security control areas for which more than one-third of
tested data centers had gaps.

Access Control

According to GAO’s FISCAM, inadequate access controls diminish the reliability of
computerized data and increase the risk of destruction or inappropriate disclosure of data. Gaps
in access control create vulnerabilities in the confidentiality, integrity, and availability of
Medicare data and systems. Associated gaps in the configuration of systems software that
control access to systems can make computers vulnerable to unauthorized access.

All 13 data centers (100 percent) tested for access control had multiple gaps. Examples of these
gaps included the ability to read files containing personal health information on the mainframe
system and archived tapes; users having unnecessary read access to sensitive system files; and
misconfigured and unpatched Web servers, which may allow unauthorized access.




                                                                                                          12
Configuration Management

GAO’s FISCAM indicates that without proper configuration management, security features
could accidentally or intentionally be turned off. In addition, processing irregularities or
malicious code could be introduced that might allow access to sensitive data or remote control of
a system. NIST SP 800-70, Security Configuration Checklists Program for IT Products,
identifies the use of security configuration checklists as a way to provide a consistent approach
to systems security and help protect against common and dangerous local and remote threats.

JANUS identified multiple gaps at 11 of the 13 data centers (85 percent) tested in this area.
Examples with high risk were the use of insecure remote access protocols; unnecessary services
running on servers, which increase the risk of unauthorized access; and the use of unsupported
operating systems on the network.

Identification and Authentication

FIPS 200 and NIST SP 800-53 require organizations to develop, disseminate, and periodically
review or update identification and authentication policies and procedures. Authentication of an
individual’s identity is a fundamental component of physical and logical access control
processes. A common threat to an organization’s servers is that sensitive information on the
server may be read by unauthorized individuals or changed in an unauthorized manner.

Seven of thirteen data centers (54 percent) tested for identification and authentication controls
had gaps. Examples included user account passwords that did not comply with CMS policy,
weak encryption keys, and the use of an older version of an authentication protocol.

Physical and Environmental Protection

FIPS 200 and NIST SP 800-53 require organizations to develop, disseminate, and periodically
review or update physical and environmental policies and procedures, ensure only authorized
access to facilities and visitor access is logged, and ensure safety and environmental controls are
in place to prevent damage to IT infrastructure assets.

Five of thirteen data centers (38 percent) tested for physical and environmental protection
controls had gaps. Examples included failure to follow procedures for physical access to
facilities, lack of logs for the removal from and delivery to the data center of IT inventory, and
the lack of physical protection for emergency power equipment.

CONCLUSION

The work performed by PwC to evaluate contractor information security programs adequately
encompassed the eight FISMA requirements referenced in section 1874A of the Act. Gaps
reported during the PwC program evaluations were supported by documented evidence.

However, we could not determine the extent and sufficiency of the JANUS work for the data
center technical assessments because of several issues with its working papers. In most

                                                 13
instances, the documentation supplied by JANUS did not provide evidence of the testing
procedures performed at the data centers. The documentation JANUS provided did not always
indicate whether JANUS actually completed each testing procedure, and cross-references to
supporting documentation were missing for many of the test procedures. In many cases, we
were unable to trace gaps presented in JANUS’s final reports to supporting evidence. Because
the documentation provided by JANUS did not reasonably ensure that JANUS completed the
work CMS engaged it to do, we could not determine whether JANUS reported all medium- or
high-risk gaps and adequately supported all gaps that were included in the reports.

NIST recommends that organizations assess more frequently those security controls that are the
most volatile or deemed critical, as well as those identified in the plans of action and milestones
because these controls have been deemed to be ineffective or nonexistent.

RECOMMENDATIONS

We recommend that CMS:

   •   review all contractor documentation related to future data center technical assessments
       and ensure that the work performed complies with CMS contractual requirements—at a
       minimum, this should include a review of test plans to ensure that the contractor has
       completed all required testing procedures and a review of contractor working papers to
       verify that reported gaps have been adequately supported, identified, and included in the
       technical assessment reports—and

   •   test security control areas in which a considerable number of gaps have consistently been
       identified in the past 2 FYs (i.e., access control, configuration management, identification
       and authentication) at all CMS Medicare data centers every year.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS concurred with our recommendations. CMS also
stated that it has taken the appropriate actions to address the identified issues. We have included
CMS’s comments in their entirety in Appendix G.




                                                 14
APPENDIXES
              APPENDIX A: ASSESSMENT OF SCOPE AND SUFFICIENCY
                  FOR THE JANUS DATA CENTER ASSESSMENTS

                     Office of Inspector General Criteria for Assessing
                                  JANUS Working Papers
                  Sufficient Evidence           Sufficient
                  That All Work Was       Documentation for All Reported All Medium-
    Data Center      Performed?              Reported Gaps?          and High-Risk Gaps?
         1                Yes                      Yes                       Yes
         2                 No                       No                   Inconclusive1
         3                 No                       No                   Inconclusive1
         4                Yes                      Yes                       Yes
         5                 No                       No                       No2
         6                 No                       No                       Yes
         7                Yes                      Yes                       No2
         8                 No                       No                   Inconclusive1
         9                 No                      Yes                   Inconclusive1
        10                 No                       No                   Inconclusive1
        11                 No                       No                   Inconclusive1
        12                 No                       No                   Inconclusive1
        13                 No                      Yes                       Yes
1
 Because of deficiencies with JANUS working papers, we were unable to determine whether
JANUS reported all medium- and high-risk gaps.
2
 JANUS either omitted gaps identified during testing from the data center’s report or
inaccurately reported the number of systems affected by the gaps identified.
                              APPENDIX B: LIST OF GAPS BY
                 FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                       CONTROL AREA AND MEDICARE CONTRACTOR

                                          Control Areas (With Impact Levels)
                            Policies    Security
                              and       Program
              Periodic     Procedures      and      Security   Testing                          Continuity
                Risk       To Reduce    Security   Awareness      of      Remedial   Incident      of
Medicare     Assessments      Risk        Plans     Training   Controls    Actions   Response   Operations
Contractor     (High)        (High)      (High)      (High)     (High)    (Medium)    (High)     (High)      Total Gaps
    1             0             0           1          0          1           0          0          0            2
    2             0             0           1          0          0           0          0          0            1
    3             0             1           1          1          1           0          0          0            4
    4             0             0           1          0          0           0          0          0            1
    5             0             0           1          0          0           0          0          0            1
    6             0             0           0          2          2           0          0          0            4
    7             0             1           0          0          0           0          0          0            1
    8             0             1           0          0          1           0          0          0            2
    9             0             0           0          0          3           0          0          1            4
   10             0             0           0          0          3           0          0          0            3
   11             0             1           0          0          0           0          0          0            1
   12             0             1           1          2          1           0          0          0            5
   13             0             2           0          0          2           0          0          0            4
   14             0             0           0          0          1           0          0          1            2
   15             0             1           0          1          0           0          0          0            2
   16             0             1           3          5          5           0          0          7           21
   17             1             2           1          0          4           0          1          3           12
   18             0             0           1          0          0           0          0          0            1
   19             0             0           0          0          0           0          0          0            0
   20             0             0           0          0          1           0          0          0            1
   21             0             0           1          0          2           0          0          0            3
   22             0             0           1          0          0           0          0          0            1
   23             0             0           1          0          2           0          0          0            3
   24             0             1           3          2          3           0          1          0           10
   25             0             1           1          0          0           0          0          0            2
   26             0             1           0          1          2           0          1          0            5
   27             0             1           0          0          2           0          0          0            3
   28             0             1           0          1          0           0          0          0            2
   29             0             0           1          1          0           0          0          0            2
   30             0             3           1          0          2           0          0          0            6
   31             0             0           1          1          1           0          0          0            3
  Total           1            19          21         17         39           0          3         12          112

        Note: Impact levels for Federal Information Security Management Act of 2002 (FISMA)
        control areas were derived by PricewaterhouseCoopers by taking the highest value from among
        the subcategories.
APPENDIX C: PERCENTAGE CHANGE IN GAPS PER MEDICARE CONTRACTOR

Contractor                FY 2006                       FY 2007               % Change
       1                     1                             2                   100%
       2                     0                             1                    100
       3                     5                             4                    (20)
       4                     0                             1                    100
       5                     0                             1                    100
       6                    10                             4                    (60)
       7                     8                             1                    (88)
       8                   N/A                             2                    N/A
       9                     7                             4                    (43)
      10                     5                             3                    (40)
      11                     4                             1                    (75)
      12                     5                             5                      0
      13                     1                             4                    300
      14                     2                             2                      0
      15                     3                             2                    (33)
      16                     6                            21                    250
      17                     8                            12                     50
      18                     7                             1                    (86)
      19                     0                             0                      0
      20                     0                             1                    100
      21                     4                             3                    (25)
      22                   N/A                             1                    N/A
      23                   N/A                             3                    N/A
      24                     9                            10                     11
      25                     2                             2                      0
      26                     9                             5                    (44)
      27                     4                             3                    (25)
      28                     2                             2                      0
      29                     3                             2                    (33)
      30                     0                             6                    600
      31                     1                             3                    200
 Contractor No
   Longer in
   Program                    4                             -                      -
     Total                   110                          112                    2%

Note: Contractors listed as “N/A” were new Medicare Administrative Contractors in FY 2007.
FY = fiscal year
       APPENDIX D: MEDICARE CONTRACTOR CHANGE IN TOTAL GAPS
      BY FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
                           CONTROL AREA




IT = Information Technology
                                                                                      Page 1 of 5

     APPENDIX E: RESULTS OF MEDICARE CONTRACTOR EVALUATIONS
     FOR FEDERAL INFORMATION SECURITY MANAGEMENT ACT OF 2002
         CONTROL AREAS WITH THE GREATEST NUMBER OF GAPS

The “impact level” shown in Tables 1 through 4 on the following pages refers to the level of
adverse impact that could result from successful exploitation of a vulnerability in any of the
FISMA control areas. Impact can be described as high, medium, or low in light of the
organization’s mission and criticality and the sensitivity of the systems and data involved.
PricewaterhouseCoopers assigned a rating of high or medium impact to each of the subcategories
in the agreed-upon procedures developed by the Centers for Medicare & Medicaid Services
(CMS). It is important to note that the impact levels were assigned to subcategories of the
FISMA control areas, not the individual gaps identified within the control areas or subcategories.
Individual gaps were assigned an overall risk level on a subjective basis by
PricewaterhouseCoopers after taking into consideration the impact and likelihood of occurrence.
                                                                                         Page 2 of 5

TESTING OF INFORMATION SECURITY CONTROLS

The Medicare contractor information security program evaluations assessed five subcategories
related to the testing of information security controls. The evaluation reports identified a total of
39 gaps in this FISMA control area.

                    Table 1: Testing of Information Security Controls Gaps
                                                        No. of Total Gaps           Subcategory
                        Subcategory                       in This Area              Impact Level
     Management reports exist for the review and
     testing of information security policies and
     procedures, including network risk assessments,
1                                                                2                       High
     accreditations and certifications, internal and
     external audits, security reviews, and penetration
     and vulnerability assessments.
     Annual reviews and audits are conducted to
     ensure compliance with FISMA guidance from
     the Office of Management and Budget for
2    reviews of security controls, including logical             6                       High
     and physical security controls, platform
     configuration standards, and patch management
     controls.
3    Change control management procedures exist.                 1                       High
     Change control procedures are tested by
4                                                               30                       High
     management to ensure they are in use.
     Remedial action is being taken for issues noted in
5                                                                0                     Medium
     audits.
       Total                                                    39
                                                                                        Page 3 of 5

POLICIES AND PROCEDURES TO REDUCE RISK

The Medicare contractor information security program evaluations assessed four subcategories
related to policies and procedures to reduce risk. The evaluation reports identified a total of 19
gaps in this FISMA control area.

                   Table 2: Policies and Procedures To Reduce Risk Gaps
                                                        No. of Total Gaps         Subcategory
                      Subcategory                         in This Area            Impact Level
    Systems security controls have been tested and
1   evaluated. The system/network boundaries                     1                    High
    have been subjected to periodic reviews/audits.
    Documentation exists that outlines reducing the
2   risk exposure identified in periodic risk                    0                    High
    assessments.
    Gaps in compliance exist based on a
    comparison of management’s compliance
3                                                                0                    High
    checklist and CMS’s core security
    requirements.
    Security policies and procedures include
4   controls to address platform security                       18                   Medium
    configurations and patch management.
      Total                                                     19
                                                                                       Page 4 of 5

SECURITY PROGRAM AND SYSTEM SECURITY PLANS

The Medicare contractor information security program evaluations assessed 10 subcategories
related to security program and system security plans. The evaluation reports identified a total of
21 gaps in this FISMA control area.

                 Table 3: Security Program and System Security Plan Gaps
                                                       No. of Total
                                                       Gaps in This  Subcategory Impact
                        Subcategory                       Area             Level
 1   Owners and users are aware of security policies.        0              High
 2   A security plan is documented and approved.             0              High
 3   The plan is kept current.                               2              High
     Management ensures that corrective actions are
 4                                                           0              High
     effectively implemented.
     Security employees have adequate security
 5                                                           5              High
     training and expertise.
     Hiring, transfer, termination, and performance
 6                                                           0              High
     policies address security.
 7   Employee background checks are performed.               5            Medium
     A security management structure has been
 8                                                           0            Medium
     established.
     Information security responsibilities are clearly
 9                                                           1            Medium
     assigned.
     Management has documented that it periodically
     assesses the appropriateness of security policies
10                                                           8            Medium
     and compliance with them, including testing of
     security policies and procedures.
       Total                                                21
                                                                                         Page 5 of 5

SECURITY AWARENESS TRAINING

The Medicare contractor information security program evaluations assessed six subcategories
related to security awareness training. The evaluation reports identified a total of 17 gaps in this
FISMA control area.

                           Table 4: Security Awareness Training Gaps
                                                       No. of Total
                                                      Gaps in This   Subcategory Impact
                        Subcategory                       Area             Level
    Annual refresher training for security is
1                                                            1              High
    mandatory.
    Employees have received a copy of or have easy
2   access to agency security procedures and                 0            Medium
    policies.
    Employees have received a copy of the Rules of
3                                                            8            Medium
    Behavior.
    Systematic methods are used to make employees
4                                                            0            Medium
    aware of security (e.g., posters or booklets).
    Security professionals have received specific
    training for their job responsibilities, and the
5   type and frequency of application-specific               5            Medium
    training provided to employees and contractor
    personnel are documented and tracked.
    Employee training and professional
6   development have been documented and                     3            Medium
    formally monitored.
      Total                                                 17
  APPENDIX F: LIST OF GAPS BY NATIONAL INSTITUTE OF STANDARDS AND
       TECHNOLOGY SECURITY CONTROL AREA AND DATA CENTER


                                             Data Center
NIST Security                                                                              Total
Control Area         1   2    3    4    5     6      7     8     9    10   11    12   13   Gaps
 Access Control      3   9    15   8    4     20     5     3     9    7     6    6    16    111
  Configuration
  Management         2   2    9    3    7     12     3     4     0    0     3    5     4        54
Identification and
 Authentication      1   0    3    0    1     2      3     0     0    0     3    2     0        15
  Physical and
 Environmental
   Protection        0   1    0    0    0     0      1     1     0    0     0    2     2        7

 Maintenance         0   0    0    0    0     0      0     3     0    0     0    0     0        3
 Certification,
 Accreditation,
  and Security
  Assessments        0   0    0    0    0     0      0     0     0    0     2    0     0        2
  Contingency
    Planning         0   0    0    0    2     0      0     0     0    0     0    0     0        2
   System and
  Information
    Integrity        0   0    0    0    0     0      2     0     0    0     0    0     0        2
    Audit and
 Accountability      0   0    0    0    0     1      0     0     0    0     0    0     0        1
    Personnel
     Security        0   0    0    0    0     0      0     0     0    1     0    0     0        1
   System and
Communications
   Protection        0   0    0    0    0     0      0     1     0    0     0    0     0        1

      Total          6   12   27   11   14    35    14     12    9    8    14    15   22    199

Note: For all 13 data centers reviewed, JANUS reported no gaps in the NIST security control
area of e-authentication. For the enterprise data center reviewed for the first time in 2007,
JANUS reported no gaps in security planning, risk assessment, incident response, media
protection, system and services acquisition, and awareness and training.

NIST = National Institute of Standards and Technology
                                                                                                                              Page 1 of 4

APPENDIX G: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 




         / ''''-   ...
     (      ~	DEPARTME.I\,'T OFHEALTH & HUMAN SERV ICES
         "Sz'­                                                                                      Ad,,,;,,;s/""/I)r
                                                                                                    wa"'"'9"", OC   2!l20 1
                                                          MAY 2 0 1010


                         TO: 	          Daniel R. Levinson

                                   ~iP~i'G~~"
                                    J  "" tU.LC.i..~
                         FROM:              I - :ravenner 

                                        Acting dminislralor and ChiefOpernlin g Officer 


                         SUBJECT: 	 Office of lnllpcctor Gencrnl (010) Draft Report -- Rcvic...' 0/ Medic(Jre Con/ractor
                                        Information Security Program El'Q/UCIt/orujor Fiscal Year 2007 (A-18-07-30291)

                         The CCnlcn for Medicare & Medicaid Services (eMS) appre<:iatcs the valuable feedback
                         provided by the 010 and their audit process. We continually strive \0 improve our oversight of
                         Medicare contractors work ing on our behalf and we realize there is always room for
                         improvement. Review of contractor documentation related to Sewrily Test & Evaluation
                         (ST&£) as well as testing controls where gaps have been identified in the past are two areas that
                         we are actively working to improve. Enclosed are the eMS official comments in response to the
                         OIG Draft Report - RC"iew ofMedicare C01!/ractor /llfomlatiOIl Security Program Evaluations
                         for Fiscal Year 1007 (A- IS-07-30291).

                         O IG Recommendatio n

                         Recommend that eMS review all contractor documentation related to future data center technical
                         assessments and ensure that the work perfonned complies with eMS contractual rC</uiremcnts­
                         at a minimum, this shc>uld include a review nftest plans to ensure that the contractor has
                         com pleted all required testing procedures and a review of contractor working papers to verify
                         that reported gaps have been adequately supported, idenlified, and included in the tedUlica!
                         assessment reports.

                         CMS Ruponse

                         The CMS agrees with the OIG recommendation. We will review all documentation rdated 10
                         Contractor ST&E and ensure that Sile Test Plans, Working Papers, Draft Reports, Scripts, Final
                         rcpom, etc. are reviewed thoroughly during and after completion of audits. The following list
                         depiets Ihe reviews pcrfonned on documentation provided 10 CMS for the FY 2008 and FY 2009
                         ST&E audits.

                         The CMS Office of lnfonnation ServiceslEDCG reviews all ST&E documentation related to
                         ST&E audits.

                         For FY 2008 - ST&E contTlle\or Janu , Associates, eMS reviewed the following:
                                PalmellO G BA - 6 control families tested for phase 2 controls
                                                                                                   Page 2 of 4




Page 2 - Daniel R. Levinson

       Quali ty Net - 6 control families tested for phase 2 oontrols
       Highmark -6 control families tested for phase 2 controls
       Verizon - 5 control families tested for phase I controls
       BeSS Florida - 6 control families tested for phase 2 controls
       Baltimore Data Cenler - 6 oontrol families tested plus pen test for phase I controls
       Tulsa (EDS) Data Center - 6 control families tested for phase 2 controls
       Plano (MeS) Data Center- 6 control families tested for phase 2 controls
       Columbia (CDS) Data Center - 6 control fam ilies tested for phase I controls
       NGS - 6 control families tested fo r phase 2 controls
       Mutual ofOmaha - 6 control fami lies tested for phase 2 controls

       For FY 2009 - ST&E contractor iFed LLC, eMS reviewed the following:
       Tu lsa (EDS) - 6 control fam ilies tested for phase 3 controls (recert)
       Columbia (CDS) Data Center - 12 control families tested for phase 2 and phase)
       controls (recert)
       Palmetto - 6 control fami lies tested for phase 3 controls
       W PS (Mutual of Omaha) - 6 (:(Introl families tested for phase 3 (:(Introls
       NGS - 6 control families tested for phase 3 controls
       Cahaba - 6 control ramilies tested for phase I (:(Introls
       Baltimore Data center - 6 control families tested plus pen test for phase 2 controls

O IG Recommend ation

Test security control areas in which a con,iderable number of gaps have consistently been
identified in the past 2 FYs (i.e., access control, configuration management, identification and
authentication) at all CMS Medicare data centers every year.

eMS Rg ooose-

The CMS agrees with the OIG recommendation and continues to lesl control areas .... here
deficiencies occurred in previous fiscal years. Control areas are selected based on the phase of
the audit cycle. For fiscal years 2008 and 2009, CMS concentrated on testing repeat controls for
the Enterprise Data Centers (HI' Tulsa, CDS Columbia, and the Baltimore Data Caller). The
practice o f retesting controls for problem areas in thc EDC's continues witb the FY eOlo ST &E
audits. The following list depicts the controls tested in FY 2008 and FY 2009 at the remaining
legacy MediCllIe data Ccntcrn and the EDC's.

Contr ols Tes ted Z008:

BCBS Florida, Palmetto GBA, Mutual of Omaha, Plano (MCS) Data center, Quality Net, Tulsa
(EDS). Highmar!c., and NOS:
       Audit and Accountability (AU) - Technical
       Configuration Management (CM) - Operational
       Contingency Planning (CP) - Operational
       Planning (P L) - Management
                                                                                               Page 3 of 4




Page 3 - Daniel R. Levinscm

       Risk Assessment (RA) - Management 

       System and Infonnation Integrity (51) - Operational 


Columbia Dala Center (CDS), and Baltimore Dala Center
      Access Control (AC) - Technical
      Identification and Authentication (IA) - Technical
      Personal Security (PS) - Operational ·
      Physical and Environmental Protection (PE) • (}p4!rOlional
      System and Communications ProtC1:tion (SC) - Technical

Controls Tested 2009:

Tulsa (EDS) Data Center, Palmetto GBA, WPS, NGS, Cahaba:
       Awareness and Training (A1) . Operational
       Security Assessment and Authorization (CA) - Management
       Incident Response (IR)· Operational
       Maintenance (MA) - Operalio1Ul/
       Media Protection (MP) - Operational
       System and SCl'Viccs Acquisition (SA) - Managemem
Columbia Data Center (CDS):
       Awareness and Training (An - Operational
       Audit and Accountability (AU) - Techllical
       Security Assessment and Authorization (CA) - Maoogemellt
       Configuration Management (CM) - OperatjOllal
       Contingency Planning (CP) - Operational
        ]neidcnt Response (IR) - OperatiOllal
        Maintenance (MA) .Opera/iollal
        Media Protection (M P)· Operatiollal
        Planning (PLJ - Mallagemellt
        Risk Assessment (RA)· Mallagement
       System and Services Acquisition (SA)· Managem e/ll
       System and lnfonnation Integrity (SI). Operalioool

Modified testing was perfonncd due to the A·123 testing of same controls and CMS was able to
inherit a portion of the A-123 work .

Baltimore Data Center:
       Audit and Accountability (AU) - Techllical
       Configuration Management (CM) - Oper(J{ioll(l{
       Contingency Planning (CP) - Operational
       Planning (PL) • Management
       Risk Assessment (RAJ· Managemellt
       System and Information Integrity (S]) • Operational
                                                                                               Page 4 of 4




Page 4 - Daniel R. Levinson


In closing, we would like 10 thank the O IG for their recommendations and valuable feedback.
We look forward to working with you to improve the information security posture at eMS and
better addressing the needs of those affected by our program.
